I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

H A A S, RI C H A R D T O D D
P etiti o n er
vs.

N o:

2 1- 5 2 8 3

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

B RI A N H. F L E T C H E R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
A u g ust 1 3, 2 0 2 1
c c:
WI L LI A M J E F F R E Y DI N KI N
WI L LI A M J. DI N KI N, P L C
1 0 1 S H O C K O E S LI P
S UI T E J
RI C H M O N D, V A 2 3 2 1 9

